DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General


     United States Coast Guard’s Management 

  of the Marine Casualty Investigations Program 





OIG-08-51                    MAY 2008
                                                                        Office ()f Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                                                       Homeland
                                             9 2008
                                                                       Security
                                     MAY



                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses a congressional request from the Committee on Transportation and
Infrastructure, U.S. House of Representatives, and the Committee on Commerce, Science and
Transportation, U.S. Senate, regarding the United States Coast Guard's management of the marine
casualty investigations program. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner

                                             Inspector General

Table of Contents/Abbreviations


Executive Summary                                                         1


Background                                                                2


Results of Audit                                                          6

   Qualifications of Marine Casualty Investigators                       7

   Marine Casualty Investigations                                       12

   Backlog of Marine Casualty Investigations                            15

   Recommendations                                                      16

   Management Comments and OIG Analysis                                 17


Appendices

   Appendix A:    Purpose, Scope, and Methodology                        21

   Appendix B:    Management Comments to the Draft Report                23

   Appendix C:    Congressional Request for Audit..                      36

   Appendix D:    Coast Guard's G-MOA Policy Letter 2-02                 38

   Appendix E:    Responses to Committees' Concerns                     .43

   Appendix F:    Major Contributors to this Report                     .46

   Appendix G:    Report Distribution                                    47


Abbreviations

  1988 Standard    June 1988 Marine Casualty Investigation Standard

  Basic Course     Basic Marine Investigator Course

  Coast Guard      United States Coast Guard

  CFR              Code of Federal Regulations

  DHS              Department of Homeland Security

  FY               Fiscal Year

  OIG              Office of Inspector General

  Marine Board     Marine Board of Investigation

  MISLE            Marine Information for Safety and Law Enforcement

  NTSB             National Transportation Safety Board

OIG

Department ofHomeland Security
Office ofInspector General

Executive Summary
                   This report provides our response to a joint request from the Committee on
                   Transportation and Infrastructure of the House of Representatives and the
                   Committee on Commerce, Science, and Transportation of the Senate on the
                   United States Coast Guard's management of the marine casualty
                   investigations program. The Cominittees requested that we audit the extent to
                   which marine casualty investigations and reports result in information and
                   recommendations that prevent or minimize the effect of similar casualties.

                   Although the Coast Guard's marine casualty investigations program has
                   resulted in numerous safety alerts and recommendations designed to prevent
                   similar casualties, the program is hindered by unqualified personnel
                   conducting marine casualty investigations; investigations conducted at
                   inappropriate levels, and ineffective management of a substantial backlog of
                   investigations needing review and closure. Because of these management
                   shortfalls, the Coast Guard may not be able to determine the causal factors of
                   accidents and may miss opportunities to issue safety alerts or
                   recommendations that could prevent or minimize similar casualties. To
                   address these shortfalls, in September 2007, the Coast Guard issued a plan to
                   enhance its marine safety program. Many of the actions of this plan are
                   similar to the recommendations in our report.

                   To improve the management and accountability of the marine casualty
                   investigations program, we are making eight recommendations to the
                   Commandant, United States Coast Guard, including:

                       •	 Developing and implementing a plan to increase the number of
                          qualified marine casualty investigators, including hiring civilians; and
                       •	 Implementing quality control procedures to ensure marine casualty
                          investigations are conducted at the recommended levels.

                   The Coast Guard agreed to seven of the recommendations, but did not concur
                   with our recommendation to revise the August 2007 marine casualty
                   investigation qualification standard to include the prequalification of Hull or
                   Machinery, and Small Vessel Inspectors. The Coast Guard's comments to our
                   report are incorporated into the body of this report, as appropriate, and are
                   included in their entirety as Appendix B.



       United States Coast Guard's Management of the Marine Casualty Investigations Program

                                              Page 1
Background
                  The United States Coast Guard has been responsible for conducting marine
                  casualty investigations for over 60 years. The marine casualty investigation
                  program presently resides in the Coast Guard's Prevention Directorate,
                  employing approximately 150 uniformed and civilian staff nation-wide.

                 According to the Coast Guard's Marine Safety Manual, the objective of the
                 marine casualty program is to obtain information for the prevention of similar
                 casualties,' as far as practicable. According to 46 Code of Federal Regulations
                 (CFR) § 4.07-1, the investigations of marine casualties and accidents and
                 determinations made are for the purpose of taking appropriate measures to
                 promote safety of life and property at sea, and are not intended to fix civil or
                 criminal responsibility. Based upon information gathered during an
                 investigation, the Coast Guard may take corrective actions, such as instituting
                 standards for safety and recommending marine safety legislation.

                 Further, according to 46 CFR § 4.05-1, upon the occurrence of a marine
                 casualty and immediately after addressing resultant safety concerns, the
                 owner, agent, master, operator, or person in charge of a vessel, shall notify the
                 Coast Guard whenever the vessel is involved in­

                         (1)	 An unintended grounding, or an unintended strike of (allision with)
                              a bridge;
                         (2) An intended grounding, or intended strike of a bridge, that creates
                              a hazard to navigation, the environment, or the safety of a vessel,
                              or that meets any criterion in paragraphs (3) through (8);
                         (3) A loss of main propulsion, primary steering, or any associated
                              component or control system that reduces the maneuverability of
                              the vessel;
                         (4)	 An occurrence materially and adversely affecting the vessel's
                              seaworthiness or fitness for service or route, including but not
                              limited to fire, flooding, or failure of or damageto fixed fire­
                              extinguishing systems, lifesaving equipment, auxiliary power­
                              generating equipment, or bilge-pumping systems;
                         (5) A loss of life;
                         (6) An injury that requires professional medical treatment (treatment
                              beyond first aid) and, if the person is engaged or employed on
                              board a vessel in commercial service, that renders the individual
                              unfit to perform his or her routine duties;
                         (7) An occurrence causing property damage in excess of $25,000,
                              including the cost of labor and material to restore the property to



     United States Coast Guard's Management of the Marine Casualty Investigations Program


                                            Page 2

                        its condition before the occurrence, but not including the cost of
                        salvage, cleaning, gas-freeing, drydocking, or demurrage; or
                    (8) An occurrence involving significant harm to the environment
                        [§ 4.03-65].

            Types of Marine Casualty Investigations

            The Coast Guard defines the following levels of marine casualty
            investigations:

            •	 Preliminary investigations are initial investigative efforts of casualties to
               determine whether to assign a case as a data collection activity, an
               informal investigation, or a formal investigation, depending on the
               severity and value to marine safety. If a case is not assigned, it remains a
               preliminary investigation.

            •	 Data collection activity investigations do not require any significant
               investigative effort, and usually consist only of collecting basic factual
               information and entering it into the Coast Guard's Marine Information for
               Safety and Law Enforcement (MISLE) database for future reference and
               analysis. Only minimum follow-up to verify accuracy and completeness
               of the data collected should be conducted, as necessary.

            •	 Informal investigations are less exhaustive than formal investigations, but
               include the determination and reporting on the causes of a casualty. This
               is the minimum level of investigative effort required to initiate
               enforcement actions. Some of the criteria for an informal investigation
               include casualties in which property damage exceeds $100,000 but is less
               than $1 million, any collision or allision resulting in property damage
               exceeding $25,000, and a medium discharge of oil, i.e., between 1,000 and
               10,000 gallons to inland waterways and between 10,000 and 100,000
               gallons to coastal waters.

            •	 Formal investigations are reserved for the more serious or significant
               incidents in which the most investigative value can be gained. Some of
               the criteria for conducting a formal investigation include two or more
               deaths, property damage exceeding $1 million, and a major discharge of
               oil, i.e., more than 10,000 gallons to inland waterways and over 100,000
               gallons to coastal waters.

            In addition, the Commandant of the Coast Guard may convene a Marine
            Board of Investigation (Marine Board) as a result of preliminary evidence,
            recommendation by a District Commander, or information from any other
            source, when it appears that a marine casualty is of such magnitude or


United States Coast Guard's Management of the Marine Casualty Investigations Program

                                      Page 3
         Qualifications of Marine Casualty Investigators
                          Based on the Coast Guard's June 1988 marine casualty investigation standard
                          (1988 standard), 68% of investigators in our sample were not qualified to
                          conduct marine casualty investigations. 1

                          Qualifications for Marine Casualty Investigators Not Fully Met

                          The Coast Guard's 1988 standard required a combination of experience,
                          investigative tasks, and training for an investigator to be qualified.
                          Specifically, to be considered prequalified for the marine casualty
                          investigations program, personnel had to be:

                               •	 Qualified as a Hull Inspector or Machinery Inspector, and a Small
                                  Vessel Inspector, all of which are responsible for checking the
                                  maintenance and capability of vessels, .2!:

                               •	 Trained in Port Operations as:

                                        o	 A Boarding Officer, responsible for verifying the legitimacy of
                                           those on board and vessel systems;
                                        o	 A Facility Inspector, responsible for verifying the safety of
                                           waterfront assets, such as oil and natural gas buildings; and
                                        o	 A Harbor Safety Officer, responsible for conducting patrols
                                           and enforcing safety zones.

                          The 1988 standard also required that personnel satisfactorily (1) initiate a
                          marine casualty investigation, (2) conduct a marine casualty investigation, (3)
                          prepare a written investigative report, (4) prepare marine investigation
                          products, (5) conduct a boating accident investigation, and (6) assure Privacy
                          Act and Freedom of Information Act requirements are maintained during and
                          after the investigation. In addition, personnel were to satisfactorily complete
                          the Basic Marine Investigator Course (Basic Course). Once these tasks and
                          training were completed, the commanding officer certified that the
                          qualification standards had been met.

                          Based on our site visits, 15 of the 22 (68%) marine casualty investigators
                          reviewed were not qualified under the 1988 standard. Five of the 15 did not
                          attend the required Basic Course. Table 4, on the next page, illustrates the



I According to the Coast Guard's Office of Investigations and Casualty Analysis, the standard for determining who is
qualified to conduct marine casualty investigations was the 1988 standard. The Coast Guard issued a revised standard in
August 2007.


            United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                        Page 7
            results of our testing of marine casualty investigator prequalifications and
            basic training attendance. As the worst case scenario, investigators 15, 16, 19,
            and 21 did not meet any of the requisite qualifications, nor did they attend the
            Basic Course.

            Conversely, 7 personnel met the prequalification standards by either fulfilling
            all Port Operations requirements or through a combination of inspector
            qualifications. For example, investigator 1 met the prequalification standard
            because the investigator was qualified as a Boarding Officer, Facility
            Inspector, and Harbor Safety Officer. Investigator 3 also met the
            prequalification standard because the investigator was qualified as a
            Machinery Inspector and a Small Vessel Inspector.




United States Coast Guard's Management of the Marine Casualty Investigations Program


                                       PageS

            checklist that required knowledge of local industry, waterways, and
            jurisdictions, as well as interviewing techniques, MISLE, and chemical
            testing. Additionally, Sector New York did not use the 1988 standard.
            Instead, it developed a training and qualifications program checklist based on
            the one used in Sector Hampton Roads. Neither Sector Hampton Roads nor
            Sector New York received approval from Coast Guard headquarters to use
            local standards. Such diverse application of the 1988 standard contributed to
            inconsistency in investigator qualifications across the Coast Guard.

            In August 2007, the Coast Guard issued a revised standard, which both added
            to and detracted from the qualifications for marine casualty investigators. The
            Coast Guard added to the standards by updating the tasks that an investigator
            must perform to qualify for the position. Those tasks include preparing for an
            investigation, initiating an investigation, generating an incident timeline,
            conducting causal analysis, conducting human error analysis, drawing and
            recording conclusions, developing safety recommendations/alerts,
            recommending enforcement actions, and completing the Basic Course.

            The August 2007 standard also removed the prequalification requirement of a
            Hull or Machinery and Small Vessel Inspector, which, in essence, lowered the
            standard. Coast Guard personnel stated knowledge in these specialty areas is
            essential to the ability of investigators to correctly identify the causes of
            marine casualties and issue appropriate safety alerts and recommendations.
            Removing this standard may affect the qualifications and capabilities of Coast
            Guard marine casualty investigators. When investigators do not have the
            experience or ability to determine that a hull failure or loss of propulsion are
            possible causes of a marine casualty, they may not be able to issue the
            appropriate safety alerts or recommendations to possibly prevent or minimize
            the effect of similar casualties in the future.

            By way of contrast, the United Kingdom's Marine Accident Investigation
            Branch, Australian Transport Safety Bureau, and Transportation Safety Board
            of Canada all require their investigators to be Master Mariners or Chief
            Engineers with several years of experience. Although these foreign entities
            have had difficulty recruiting individuals who meet the experience
            requirements, officials from the entities indicated that such standards help
            ensure that marine casualty investigations are conducted by qualified
            investigators.

            Management Controls to Ensure Qualified Investigators

            The Coast Guard has not effectively managed and controlled aspects of the
            marine casualty investigation program to ensure that it obtains and develops
            qualified investigators. The difficulty in assigning qualified investigators can


United States Coast Guard's Management of the Marine Casualty Investigations Program

                                      Page 10
            be attributed to competing Coast Guard priorities and a limited number of
            experienced personnel. This makes it difficult to ensure that all investigator
            positions are filled with qualified staff. Specifically, headquarters assignment
            officials select personnel to fill sector investigator positions from a pool of
            available candidates. There are a limited number of candidates from which to
            draw.

            The Coast Guard has not established a clear and desirable career path for
            investigators, which can further impede recruitment efforts. At the Sectors,
            commanders have the discretion to assign experienced and qualified
            investigators to meet higher priority mission needs, leaving less trained and
            qualified personnel to perform investigative duties. Given competing mission
            demands, there is no assurance that an investigator will perform investigative
            work. Instead, investigators may be called upon to work in areas such as
            inspections or facilities, outside of their specialty area. For example, a tour in
            the Prevention Directorate could mean yearly rotations across specialty areas,
            such as waterways management and drug and alcohol testing. Given the lack
            of a career path and the unpredictable nature of investigation assignments,
            potential Coast Guard candidates also may not want to become investigators.
            Hull and Machinery Inspectors told us that promotion to the position of
            marine casualty investigator would not advance their careers.

            Additionally, according to Coast Guard personnel, tour of duty rotations
            hinder investigators in acquiring the experience needed for career
            development. The agency's uniformed investigators generally are not in their
            positions for more than a single, three-year tour of duty in the same location.
            The forced rotations preclude the investigators from acquiring the extensive
            knowledge of local waterways and industries that experienced casualty
            investigators have told us is needed to be an effective investigator.

            In contrast, civilian marine casualty investigators are not subject to the three­
            year tour of duty rotation standard. Over time, they can gain a greater
            knowledge of specialties such as local waterways and industries or experience
            in enforcing maritime regulations to enhance their qualifications. Of the 22
            marine casualty investigators that we reviewed, one was a civilian. In FY
            2007, the Coast Guard reported there were six civilians serving as full time
            marine casualty investigators.

            Prior Reports on Marine Casualty Investigations

            Unqualified marine casualty investigators are not a new issue. Coast Guard
            studies in the mid 1990s of various aspects of the marine casualty program
            also identified problems with marine casualty investigator qualifications:




United States Coast Guard's Management of the Marine Casualty Investigations Program


                                      Page 11

                  •	 The Coast Guard Research and Development Center report, U.S. Coast
                     Guard Marine Casualty Investigation and Reporting: Analysis and
                     Recommendations for Improvement, August 1994, included
                     recommendations for organizational change, such as encouraging
                     specialization in investigations and using civilian investigators to help
                     increase the numbers and qualifications of marine casualty
                     investigators.

                  •	 The Coast Guard's Report on the Quality Action Team on Marine
                     Safety Investigation, January 1995, included recommendations for
                     maximizing staff utilization and updating the marine casualty
                     investigation process.

              The Coast Guard has implemented a number of these study recommendations,
              resulting in improvements to the program. For example, as defined in the G­
              MOA Policy Letter 1-00, the Coast Guard instituted the levels of
              investigation. In addition, the Coast Guard now requires investigators to
              complete causal analysis training. However, more needs to be done. The
              Coast Guard has not focused on addressing recommendations related to
              investigator qualifications. Until it does, unqualified personnel may continue
              to conduct marine casualty investigations, inhibiting the ability of the Coast
              Guard to identify causes and make appropriate recommendations for
              preventing or minimizing similar casualties.

Marine Casualty Investigations
              The Coast Guard did not always conduct marine casualty investigations
              according to its own policies. Due to the September 11,2001, terrorist attacks
              and to promote consistency and free staff resources for other duties, the Coast
              Guard permitted formal marine casualty investigations to be conducted at the
              informal level, not to be downgraded further, and informal investigations to be
              conducted at the data collection activity level, not to be downgraded further.
              This initiative became known within the Coast Guard as the "9/11
              downgrade."

              In September 2002, the Coast Guard iS5ued a policy letter that superseded the
              "9/11 downgrade" and returned the investigative levels to the
              pre-September 11, 2001 levels. (See Appendix D for the Coast Guard's G­
              MOA Policy Letter 2-02.) However, the Coast Guard headquarters did not
              effectively communicate to the Sectors that the "9/11 downgrade" was
              rescinded. Some Sectors did not stop the "9/11 downgrades" until mid-2006,
              four years later.




  United States Coast Guard's Management of the Marine Casualty Investigations Program

                                        Page 12
            Our review of marine casualty investigations from five Coast Guard locations
            throughout the United States showed that 53% of the investigations in our
            sample were conducted at a lower level than recommended by Coast Guard
            guidance. For example, the Coast Guard conducted eight investigations at the
            data collection activity level, two levels below the formal level recommended
            by the guidance. Specifically,

                •	 A barge carrying construction equipment capsized and sank; the
                   owners reported $12 million in damages.

                •	 A barge under tow ran aground causing $1.5 million in damages to the
                   vessel, and also resulted in the discharge of approximately 10,000
                   gallons of gasoline into a river. The marine casualty investigators
                   referred the incident for enforcement action because of the discharge.

            According to the Coast Guard's G-MOA Policy Letter 2-02 and based on the
            dollar values in both incidents and the discharge of gasoline in the second
            incident, the Coast Guard should have conducted an investigation to identify
            the causal factors of the casualty. Further, a formal investigation of the
            second incident would have been useful in providing the evidence needed to
            support a judge's decision in an enforcement action. Coast Guard officials
            stated that Sector commands made the decision to conduct the investigations
            at two levels below the prescribed level. The Sector commands have the
            leeway to conduct investigations at other than the recommended level.
            However, to maintain control over the program, the Sector commands should
            document departures from Coast Guard guidance.

            As summarized in Table 5, on the next page, 48 marine casualty investigations
            were conducted at the incorrect level pursuant to the "9/11 downgrade."




United States Coast Guard's Management of the Marine Casualty Investigations Program


                                      Page 13

                       struck a platform, causing $275,000 in property damage. This
                       preliminary investigation should have been conducted two levels
                       higher at the informal level. The preliminary investigation does not
                       include steps to identify causal factors.

              These investigations were not conducted at recommended levels for varying
              reasons. For example, some Coast Guard Sectors did stop the "9111
              downgrade" until mid-2006 because of communication problems from Coast
              Guard headquarters regarding issuance of the G-MOA Policy Letter 2-02.
              According to Coast Guard officials, there were also conflicting interpretations
              of how to apply the Coast Guard's G-MOA Policy Letter 2-02. For example,
              according to the policy letter, loss of propulsion should be investigated at the
              informal level. However, some marine casualty investigators defined loss of
              propulsion as lost propulsion from one engine even though there might be
              multiple engines, whereas others defined loss of propulsion as when a vessel
              cannot remain underway.

              Further, some marine casualty investigators relied on the Coast Guard's
              outdated Marine Safety Manual for investigation guidance, which also created
              confusion. The Coast Guard has not substantially updated its Marine Safety
              Manual since February 1989. As such, the manual does not include the
              investigation levels defined in G-MOA Policy Letter 2-02, nor does it refer to
              MISLE. In November 2004, the Coast Guard issued a Draft Marine Safety
              Manual for comment and review to ultimately update the February 1989
              version. Since this update has not been finalized and approved to supersede
              the February 1989 version, marine casualty investigators are not certain which
              manual is the authoritative guidance for conducting marine casualty
              investigations.

              As a result of formal and informal investigations conducted at the lower data
              collection activity level, causal factors were not always determined. Without
              such determinations, the Coast Guard may have lost the opportunity to issue
              safety recommendations or alerts to prevent or minimize the effect of similar
              casualties occurring again.

Backlog of Marine Casualty Investigations

              Coast Guard headquarters is not timely in reviewing or closing marine
              casualty investigation reports. On November 9,2006, Coast Guard
              headquarters had a backlog of 4,240 investigations, of which 2,466 (58%)
              were open and had been awaiting review and closure for more than six
              months. However, one Coast Guard headquarters staff was responsible for
              reviewing and closing all of the investigations. This staff member estimated
              that, at best, she could devote 50% of her time to this function. Assigning this


  United States Coast Guard's Management of the Marine Casualty Investigations Program

                                        Page 15
              significant workload to one person is not sufficient and contributes even
              further to creating a backlog in marine casualty investigations.

              To reduce the backlog, the Coast Guard resorted to a mass closure of
              investigations without the proper headquarters review. Specifically, on
              September 29,2006, Coast Guard headquarters closed 3,848 investigations
              that it deemed "low risk" based on the criteria that the casualty:

                  •	   Occurred in calendar years 2002-2004;
                  •	   Involved no fatalities or missing persons;
                  •	   Involved injuries to fewer than six persons;
                  •	   Involved total dollar damages of less than $250,000;
                  •	   Involved less than 100 gallons of oil spilled; and
                  •	   Involved no total losses of vessels.

              Included in the September 29,2006, closure project were 194 informal
              investigations and 1 formal investigation. Although the Coast Guard deemed
              them low risk, some investigations merited reviews because they involved
              serious incidents requiring causal analysis. Enforcement actions also may
              have resulted from these investigations.

              Further, closing investigations without thorough review resulted in lost
              opportunities to identify errors input to the MISLE database. The MISLE data
              can support trend analysis and studies that may result in recommendations and
              safety alerts. Likely, no one will go back to check for errors or make
              corrections to those included in the mass closure project. In our testing of 145
              marine casualty investigations, we identified 43 (30%) that contained at least
              one MISLE data error. The Coast Guard corrected the errors, such as incident
              dates, numbers of persons at risk, and levels of investigation, that we brought
              to their attention. With a thorough review at headquarters, the number of
              errors could be further reduced. Assigning more staff to manage the
              investigation review and closure process would also help.

Recommendations

              To improve the management and accountability of the marine casualty
              investigations program, we recommend that the Commandant, United States
              Coast Guard:

              1.	 Develop and implement a plan to increase the number of qualified marine
                  casualty investigators, including hiring civilian marine casualty
                  investigators, and improving the career path for marine casualty
                  investigators.



  United States Coast Gnard's Management of the Marine Casualty Investigations Program

                                        Page 16
              2.	 Evaluate re-instituting the four-year tour of duty for active duty marine
                  casualty investigators and ensure that they complete the entire tour of duty
                  as a marine casualty investigator.

              3.	 Develop and implement a plan to ensure attendance at the basic and
                  advanced courses for those qualified to attend.

              4.	 Revise the August 2007 marine casualty investigation qualification
                  standard to include the prequalification of Hull or Machinery, and Small
                  Vessel Inspectors.

              5.	 Implement quality controls to ensure that marine casualty investigations
                  are conducted at the recommended levels; consistent information is
                  gathered; and causal factors are determined when appropriate.

              6.	 Review and revise the criteria for the levels of marine casualty
                  investigations, make any appropriate changes to reduce or eliminate
                  conflicting interpretations, and ensure criteria are consistently applied
                  throughout the Coast Guard.

              7.	 Finalize and issue the Marine Safety Manual.

              8.	 Reorganize the headquarters review and closure process to include
                  sufficient staff responsible for reviewing and closing marine casualty
                  investigations, and ensure that the review and closure process is completed
                  in a timely and effective manner.

Management Comments and OIG Analysis
              The Coast Guard agreed to seven of the recommendations, but it did not
              concur with our recommendation to revise the August 2007 marine casualty
              investigation qualification standard to include the prequalification of Hull or
              Machinery, and Small Vessel Inspectors. We consider this recommendation
              unresolved until the standard has been revised. Four of the recommendations
              will remain open until details and documentation are provided on actions
              taken so that we can determine whether these actions adequately address the
              substance of our findings and recommendations.

              Management Comments to Recommendation #1:
              The Coast Guard concurred with our recommendation and stated that it is
              seeking to increase both field investigating officers and marine investigations
              staff support personnel. Consistent with the Coast Guard's efforts to enhance
              its marine safety program, the FY 2009 President's Budget includes a request
              for 276 additional Coast Guard marine safety personnel. Of the 276 positions


  United States Coast Guard's Management of the Marine Casualty Investigations Program

                                        Page 17
            in this request, 221 will be marine inspectors and investigators, 28 positions

            are for program management and training, and 27 positions are for support.


            OIG Analysis

            We agree with the actions the Coast Guard has taken to address the intent of

            our recommendation. However, the recommendation will remain open until

            the Coast Guard provides us with documentation that specifically details

            actions taken to ensure that the number of qualified marine casualty

            investigators is increased and the career path for marine casualty investigators

            is improved. The documentation should include annual reporting

            requirements and the identity of organizational entities responsible for the

            implementation.


            Management Comments to Recommendation #2:

            The Coast Guard concurred with our recommendation and stated that it has

            issued Coast Guard-wide guidance directing field units to ensure personnel

            remain in their original assigned position for their entire tour, and will

            continue to enforce a four-year tour of duty as broadly as possible.


            OIG Analysis

            The Coast Guard has been responsive to our recommendation by enforcing a

            four-year tour of duty as broadly as possible and ensuring personnel complete

            their entire tour in their assigned position. We consider the recommendation

            closed.


            Management Comments to Recommendation #3:

            The Coast Guard concurred with our recommendation and stated that priority

            to attend the basic and advanced courses is given to individuals who are

            assigned to investigating officer positions and conducting investigations.


            OIG Analysis

            The Coast Guard has been responsive to our recommendation in developing

            and implementing a plan to ensure attendance at the basic and advanced

            courses for those qualified to attend. We consider the recommendation

            closed.


            Management Comments to Recommendation #4:

            The Coast Guard did not concur with our recommendation and stated the

            prequalification as a hull, machinery, or small vessel inspector is required to

            attend the basic marine investigator course. In addition, the Coast Guard

            stated that anyone of these inspection qualifications provides the basic

            knowledge needed to begin investigator officer training.





United States Coast Guard's Management of the Marine Casualty Investigations Program


                                      Page 18

            OIG Analysis
            We maintain that the Coast Guard should revise its marine casualty
            investigation qualifications standard to include the prequalification of Hull or
            Machinery, and Small Vessel Inspectors because the August 2007 guidance
            removed the prequalification requirement which, in essence, lowered the
            standard. We consider this recommendation unresolved until the standard has
            been revised. Coast Guard personnel stated that knowledge in these specialty
            areas is essential to the ability of investigators to correctly identify the causes
            of marine casualties and issue appropriate safety alerts and recommendations.
            In addition, based on our site visits, 15 of the 22 (68%) marine casualty
            investigators reviewed were not qualified under the June 1988 marine casualty
            investigation qualification standard. Ten of the 15 attended the required basic
            marine investigator course.

            Management Comments to Recommendation #5:
            The Coast Guard concurred with our recommendation and stated that it
            delineated quality control measures, outlining suggested levels of effort and
            types of investigations in the updated edition of the Marine Safety Manual,
            promulgated on April 24, 2008. In addition, the Coast Guard stated that its
            headquarters staff review investigation activities prior to closure to ensure
            compliance with policy.

            OIG Analysis
            We agree with the actions the Coast Guard has taken to address the intent of
            our recommendation. However, the recommendation will remain open until
            the Coast Guard provides us with documentation that specifically details
            actions taken to ensure that marine casualty investigations are conducted at
            the proper levels, that consistent information is gathered, and that casual
            factors are determined when appropriate. The documentation should also
            include annual reporting requirements and identify the organizational entities
            responsible for implementing these corrective actions.

            Management Comments to Recommendation #6:
            The Coast Guard concurred with our recommendation and stated that it
            established clear and sufficient criteria for the levels of marine casualty
            investigations in the updated edition of the Marine Safety Manual,
            promulgated on April 24, 2008. In addition, the Coast Guard stated that it
            ensures consistent application of the criteria through courses at Training
            Center Yorktown, periodic training at various units, and informal postings on
            its web portal.

            OIG Analysis
            We agree with the actions the Coast Guard has taken to address the intent of
            our recommendation. However, the recommendation will remain open until


United States Coast Guard's Management of the Marine Casualty Investigations Program

                                      Page 19
            the Coast Guard provides us with documentation that specifically details

            actions taken to ensure that the criteria for the levels of marine casualty

            investigations are reviewed and revised, any appropriate changes to reduce or

            eliminate conflicting interpretations are made, and the criteria are consistently

            applied throughout the Coast Guard. The documentation should include

            annual reporting requirements and identify the organizational entities

            responsible for implementing these corrective actions.


            Management Comments to Recommendation #7:

            The Coast Guard concurred with our recommendation and stated that it issued

            an updated edition of the Marine Safety Manual on April 24, 2008.


            OIG Analysis

            The Coast Guard has been responsive to our recommendation in finalizing and

            issuing the Marine Safety Manual. We consider the recommendation closed.


            Management Comments to Recommendation #8:

            The Coast Guard concurred with our recommendation and stated that

            sufficient resources need to be in place to review and close marine casualty

            investigations in a timely and effective manner.


            OIG Analysis

            We agree with the actions the Coast Guard has taken to address the intent of

            our recommendation. However, the recommendation will remain open until

            the Coast Guard provides us with documentation that specifically details

            actions taken to ensure that Coast Guard headquarters assigns sufficient staff

            to manage the investigation review and closure process and timely review and

            close marine casualty investigation reports. The documentation should also

            include annual reporting requirements and identify the organizational entities

            responsible for implementing the corrective actions.





United States Coast Guard's Management of the Marine Casualty Investigations Program


                                      Page 20

Appendix A
Purpose, Scope, and Methodology

                     Our audit was performed in response to a congressional request from the
                     Committee on Transportation and Infrastructure of the House of
                     Representatives and the Committee on Commerce, Science and
                     Transportation of the Senate regarding the Coast Guard's management of its
                     marine casualty investigations program. Our objective was to determine the
                     extent to which marine casualty investigations and reports resulted in
                     information and recommendations that prevent or minimize the effect of
                     similar casualties.

                     We reviewed Coast Guard documentation and manuals related to marine
                     casualty investigations, including the Coast Guard's G-MOA Policy Letters 1­
                     00, 2-02, 2-04 and 6-02.

                     In addition to conducting fieldwork in Washington, D.C., we also made site
                     visits to five Coast Guard locations: Sector St. Petersburg, Florida; Sector
                     Portland, Oregon; Sector Hampton Roads, Virginia; Sector New Orleans,
                     Louisiana; and Sector New York, New York.

                     We also interviewed officials from the Coast Guard, the NTSB, Gulf Coast
                     Mariners Association, and the Towing Vessel Safety Advisory Committee.
                     We communicated with officials from the United Kingdom's Marine Accident
                     Investigation Branch, the Australian Transport Safety Bureau, and the
                     Transportation Safety Board of Canada.

                      We analyzed an extract of the MISLE database of 15,327 marine casualties
                      and related enforcement actions to determine the op~imal sampling
                      methodology. We determined our sampling based on those Coast Guard
                      Districts with the highest percentage of informal and formal investigations.
                    . From these Districts, we identified the following Sectors with the highest
                      percentage of informal and formal investigations: Sector St. Petersburg,
                      Florida; Sector Portland, Oregon; Sector Hampton Roads, Virginia; and
                      Sector New Orleans, Louisiana. We randomly selected 100 investigations
                      from those four Sectors. In addition, we judgmentally selected five
                      investigations from each of the four Sectors. Further, we judgmentally
                      selected 25 data collection activity investigations from the District with the
                      highest incidence of these investigations and selected the Sector within the
                      District with the highest incidence of these investigations, which was Sector
                      New York, New York.

                     We relied on an extract from the Coast Guard's MISLE database on 15,327
                     marine casualties that occurred during the period January 1, 2003, through
                     October 31, 2006. Although we identified some data input errors as discussed



         United States Coast Guard's Management of the Marine Casualty Investigations Program


                                               Page 21

Appendix A
Purpose, Scope, and Methodology
                    in the body of the report, we concluded that the data was sufficiently reliable
                    to be used to support our audit findings.

                      We conducted our audit between November 2006 and April 2008 under the
                      authority of the Inspector General Act of 1978, as amended, and according to
                      generally accepted government auditing standards.

                      We would like to extend our appreciation to the Coast Guard for the
                      cooperation and courtesies extended to our staff during this review.




          United States Coast Guard's Management of the Marine Casualty Investigations Program


                                                Page 22

Appendix B
Management Comments to the Draft Report




            U.S. Department                      Commandant                      2100 Second        SoW.
            Homeland Security       .                States Coast                Washington, DC 20593-0001
                                                                                 Slaff Symbol:
                                                                                 Phone: (202) 372-3533
            United States                                                             1202)
            Coast Guard                                                          Ema; :

                                                                                 7500

                                                                                         -2
                                                                      Reply to   CG·823
                                                                      Attn of:   Mark Allen Kulwicki
                                                                                 372-3533
           To:     Inspector General
           Subj:   DHS OIG REPORT: "UNITED STATES COAST GUARD'S MANAGEMENT OF
                   THE MARINE CASUALTY INVESTIGATIONS PROGRAM"
           Ref:    (a) 010 Draft Report
           1. TIris letter transmits our proposed response to the Office of Inspector General (OlG) draft
           report findings and recommendations contained in reference (a).
           2. Please contact Mark Kulwicki at (202)-372-3533, ifyou have any questions.
                                                           #
           Enclosures: (1) U.S. Coast Guard Response to OIG Audit




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                       Page 23
AppendixB
Management Comments to the Draft Report




                                     UNITED STATES COAST GUARD

                               STATEMENT ON INSPECTOR GENERAL REPORT


            TITLE: "UNITED STATES COAST GUARD'S MANAGEMENT OF THE MARINE
            CASUALTY INVESTIGATIONS PROGRAM" (Draft Report dated April 28, 2008)

            The United States Coast Guard generally concurs with the orG's recommendations included in
            this report and appreciates the efforts ofDHS OIG in documenting areas for improvement. We
            are currently taking actions to address these recommendations. The Coast Guard provides the
            following comments in response to the findings ofthe report. They are organized under five
            sections: introduction, recommendation and responses, supplemental comments, technical
            comments, and editorial comments.

            RECOMMENDATIONS AND RESPONSES

            Recommendation #1: Develop and implement a plan to increase the number ofgualified
            marine casualty investigators, including hiring civilian marine casualty investigators, and
            improving the career path for marine casualty investigators.

            Concur. The Coast Guard is seeking to increase both field Investigating Officers (lOs) and
            marine investigations staff support personnel. We are taking into account current staffing levels
            and increasing demand for services in our planning efforts. These efforts are part of a broad plan
            to improve marine safety which is attached as Enclosure I.

            On September 25,2007, the Coast Guard delivered this plan (Enclosure I) to Congress to outline
            efforts to enhance the Marine Safety Program. Our plan provides a vision and multi-year
            roadmap for improving the effectiveness, consistency, and responsiveness ofthe Coast Guard
            Marine Safety program to promote safe, secure, and enVironmentally sound maritime commerce.
            The Coast Guard will reinvigorate industry partnerships, improve mariner credentialing services,
            bolster inspector and investigator capacity, improve technical competencies, and expand
            rulemaking capability to ensure that we meet current and future industry needs.

           Consistent with this plan, the Fiscal Year 2009 President's Budget includes a request for 276
           additional Coast Guard Marine Safety personnel. Ofthe 276 positions in this request, 221 will
           be marine inspectors and investigators, 28 positions are for program management and training,
           and 27 positions are for support. There are currently 552 marine inspectors and investigators in
           the field at Coast Guard units. Therefore, the additional 221 personnel added to the field .
           represent a 40% growth in the existing number ofmarine inspectors and investigators. These
           personnel will begin to increase our capacity to perform both vessel inspections and casualty
           investigations.




        United States Coast Guard's Management of the Marine Casualty Iuvestigations Program

                                                        Page 24
Appendix B
Management Comments to the Draft Report




            Recommendation #2: Evaluate re-instituting the four-year tour ofduty for active duty marine
            casualty investigators and ensure that they complete the entire tour of duty as a marine casualty
            investigator.

            Concur. A return to a four-year tour would provide additional time and training opportunities to
            develop a strong knowledge base for investigating officers. We also agree that assigned
            personnel should complete their entire tour in their assigned billet. The Coast Guard Personnel
            Command recently issued Coast Guard-wide guidance directing field units to ensure personnel
            remain in their original billet assignment, and will continue to enforce a four-year tour of duty as
            broadly as possible.


            Recommendation #3: Develop and implement a plan to ensure attendance at the basic and
            advanced courses for those qualified to attend.

            Concur. Priority is given to individuals who are assigned to Investigating Officer billets and
            conducting investigations. This was recently re-emphasized in a directive from Coast Guard
            Headquarters to field units (Enclosure 2).


            Recommendation #4: Revise the August 2007 marine casualty investigation qualification
            standard to include the prequalification of Hull or Machinery, and Small Vessel Inspectors.

            Do not concur. Prequalification as a hull, machinery, or small vessel inspector is required to
            attend the basic marine investigator course. Anyone ofthese inspection qualifications provides
            the basic knowledge needed to begin investigating officer training. On April 24, 2008, the Coast
            Guard's Assistant Commandant for Marine Safety, Security, and Stewardship, sent Coast Guard­
            wide guidance to reiterate and emphasize the importance of policies currently in place that strive
            to ensure the integrity ofthe Marine Casualty Investigations program (Enclosure 2). This
           .message states the importance of proper training and upholds core competencies and
            prerequisites for becoming a qualified Marine Casualty Inspector. We are working to ensure
            billets are staffed in the field with a corps of well-trained, certified, and experienced Marine
            Casualty Investigators.


           Recommendation #5: Implement quality controls to ensure marine casualty investigations are
           conducted at the proper levels to make certain that consistent information is gathered and that
           casual factors are determined when appropriate.

           Concur. However, quality control measures are already delineated in Chapter A5 of the Marine
           Safety Manual Vol. V, Commandant Instruction M16200.10A. The Marine Safety Manual
           outlines suggested levels of effort and types of investigations. Quality control also exists within
           the MISLE database that requires specific data entries based on the level of investigation. For
           example, if an informal level of investigation is selected, MISLE requires that Causal Analysis
           be entered. Policy in the MISLE Process Guide also requires at least one level of review of an
           investigation prior to forwarding to Coast Guard Headquarters. Coast Guard Headquarters staff



                                                             2




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                         Page 25
AppendixB
Management Comments to the Draft Report




            reviews investigation activities prior to closure to ensure compliance with policy. These quality
            control measures will be enhanced by additional personnel.


            Recommendation #6: Review and revise the criteria for the levels of marine casualty
            investigations. make-any appropriate changes to reduce or eliminate conflicting interpretations.
            and ensure criteria are consistently applied throughout the Coast Guard.

            Concur. We believe the criteria for the levels ofmarine casualty investigations established in
            the Marine Safety Manual Vol. V are clear and sufficient. We ensure consistent application
            through courses at Training Center Yorktown, periodic training at various units, and informal
            postings on our web portal. However, we agree there is room for improvement in applying the
            criteria consistently and are committed to reviewing and revising all criteria.


            Recommendation #7: Finalize and issue the Marine Safety Manual.

            Concur. An updated edition ofthe Marine Safety Manual (MSM) was promUlgated on 24 April
            2008 as Commandant Instruction M16200.IOA.


            Recommendation #8: Reorganize the Headquarter review and closure process to include
            sufficient staff responsible for reviewing and closing marine casualty investigations. and ensure
            that the review and closure process is completed in a timely and effective manner.

            Concur. We agree there needs to be sufficient resources in place to review and close marine
            casualty investigations in a timely and effective manner.



           Encl    (1): Marine Safety Improvement Plan

                   (2): ALCOAST 241806 Z APR 2008





                                                            3




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                        Page 26
AppendixB
Management Comments to the Draft Report




                                              Executive Summary
                       "Enhancing the Coast Guard Marine Safety Program"
                                       25 September 2007
               Background. The Coast Guard ensures the ~afety of maritime transportation and
               commerce through a layered, interwoven system of authorities, compliance, collaboration,
               enforcement and public dialogue. We have been a leader in promoting global maritime
               safety, security, and environmental protection. Notwithstanding, the maritime industry is
               experiencing unprecedented complexity and growth, while al~o facing increa~d risk
from
               transnational threats.
 The~e dynamic~ lead to a greater demand for Coast Guard Marine
               Safety ~ervices and call for a renewed focu~ on thi~ core Coast Guard mi§ion.

              Way Ahead. While we.have taken ~teps to improve this sy~tem, we acknowledge much
              more must be done. I am directing the development of a strategy that provides a vision
              and roadmap for improving the effectiveness, consistency, and responsivenes~ of the Coast
              Guard Marine Safety program to promote safe, secure, and environmentally sound
              maritime commerce. The Coast Guard will reinvigorate indu~try partnerships, improve
              mariner credentialing services, bolster inspector and investigator capacity, improve
              technical competencies, and expand rulemaking capability to ensure that we meet current
              and future industry needs. The Coast Guard will develop metries to continually assess our
              progress towards achieving Marine Safety goals and objectives.

              This strategy, to be developed in'consultation with industry partners, will include the
              following decisive actions (some of which are underway) to improve Marine Safety
              mission effectiveness:

              Improve the Coast Guard's Marine Safety CapaCity and Performance
                    o Increase marine inspector and investigator capacity.
                    o	 Strengthen marine inspection and investigation consistency through addition of
                       civilian positions.
                    o .Increase accessions from U.S. Merchant Marine Academy and maritime
                       institutions..                      .
                    o. Strengthen Marine Safety career paths.
                    o Expand professional Marine Safety training and education.
                    o Eltpand opportunities for maritime industry training.
                    o Enhance engineering capacity for plan review, policy and standards
                       dllvelopment.

              Enhance Service Delivery to Mariners and Industry Customers
                    o Establish Centers ofExcellence.
                   o Improve information technology systems.
                   o Increase rulemaking capacity to meet regulatory implementation.
                   o Improve credentialing through greater efficiency, transparency and capacity.




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                        Page 27
AppendixB
Management Comments to the Draft Report




               Expand Outreach and Advisory Mechanisms for Industry and Communities
                      o Establish Assistant Commandant for Marine Safety, Security, and Stewardship.
                      o Establish a national council of maritime advisors for the Commandant.
                      o	 Exercise leadership at international, national, regional, state, and local safety,
                         security, and environmental committees.

               We are confident these courses of action will result in needed improvements, although
               many require additional planning to ensure proper implementation and efficacy. A more
               thorough review of resource requirements is needed before developing specific timelines
               and milestones.




                                                            2




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                        Page 28
AppendixB
Management Comments to the Draft Report




                      "Enhancing the Coast Guard Marine Safety Program"
              Current st!lJe. The Coast Guard's Marine Safety program is responsible for ensuring the
              safe operation and navigation of some 20,000 U.S. and foreign-flagged vessels. We
              conduct over 70,000 domestic vessel inspections and 10,000 port state control
              examinations each year to safeguard maritime commerce, international trade and supply
              chain security. We also conduct 14,000 casualty, suspension and revocation, and civil
              penalty cases annually to leverage lessons-learned and prevent future maritime tragedies.
              These missions are accomplished by a cadre ofapproximately 1,000 uniformed and
              civilian inspectors, investigators and port state control officers stationed domestically and
              around the world. They are carried out through a shared commitment with industry to
              facilitate safe, secure, and environmentally sound marine transportation.

              Discussion. The Coast Guard's responsibility to improve Marine Safety service delivery is
              time-eritical given growth trends in the maritime industry and increase in demand for
              Marine Safety services. Industry growth and increased complexity over the last 10 years
              outpaced commensurate growth in the Coast Guard Marine Safety program, resulting in a
              performance gap. For example, last year United States deep-draft seaports and seaport­
              related firms employed over 8 million American citizens while adding nearly $2 trillion to
              our domestic economy. From 2002 to 2005, U.S. port calls oflarge, ocean-going merchant
              vessels (i.e., over] 0,000 gross tons) increased nearly] 0 percentto 61,047 according to
              U.S. Department ofTransportation statistics. Moreover, over the last five years, the
              number of U.S.-flag passenger vessels increased by seven percept and offshore oil industry
              vessel growth exceeded 35 percent. We recognize indUStry's concem that our Marine
              Safety program lacks sufficient capacity to be responsive, inclusive, accessible, and
              customer-focused. We share in their desire to aggressively address this concern.

              Projected growth areas for Marine Safety services include:

                  o New inspection requirements for as many as 7,000 uninspected towing vessels;

                  o Market-driven shifts in port activity due to increased demand for such products as
                    liquefied natural gas, petroleum, dangerous cargoes, and containerized freight;

                  o Proportional growth in marine investigations resulting from industry growth;

                  o Increased demand for commercial fishing vessel examinations; and

                 o   Continued growth in requirements to publish implementing regulations.

              An integrated Coast Guard approach to safety, environmental protection, waterways
              management, and security best ensures the long-terin success ofthe global maritime
              transportation system. The goal in preventing or responding to major marine incidents,
              regardless ofcause, is the same: to save lives, preserve property, protect the environment,
              and minimize disruption to the maritime transportation system. The Coast Guard's
              operational model is flexible, adaptive, efficient and capable of succeeding with myriad

                                                            3




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                         Page 29
AppendixB
Management Comments to the Draft Report




              maritime scenarios. Today, as in the past, our safety, security, and stewardship program
              goals and authorities to act are inextricably linked.

              Following the terrorist attacks of 9/1 I, our longstanding industry partnerships were critical
              to protecting the global marine transportation system. These partnerships remain vital
              today. We must ensure resources match the growing demand for our Marine Safety
              services. Our marine safety capacity and effective engagement with stakeholders demand
              senior leadership's attention. We will improve Marine Safety program focus and
              perfonnance.

              Course ofAction. The Commandant is directing the development of a strategy that
              includes the following courses of action, (some of which are underway):

                   Improve the COQSt Guard's Marine Safety Program Capacity and Performance

              Increase marine inspector and investigator capacitv.
              Within budget, the Coast Guard will add more marine inspectors, port state control
              officers, and investigators. We will use these full-time positions to meet current and
              anticipated growth in maritime commerce and expansion of the regulated fleet. Demand
              for inspection and investigation work is increasing and capacity to match these demands
              must be built and sustained as a result of growth factors such as projected Liquefied
              Natural Gas (LNG) ships and facilities, thousands oftowing vessel examinations, non-tank
              vessel response plan reviews, ballast water management oversight, and regulatory
              development.

              Strengthen marine inspection and investigation consistency by adding civilian positions.
              Within budget, we intend to increase the number of civilian inspectors and investigators.
              Additional civilian inspector/port state control officer positions and investigating officers
              will help the Coast Guard retain expertise and geographic-specific competencies while
              ensuring long-tenn continuity in critical mission areas. We will dismbute civilian
              positions according to demand and to complement the military workforce. Military
              personnel must continue to serve as marine inspectors and investigators to ensure
              innovation,' and gamer requisite experience for future program management and command
              responsibilities. A blend of military and civilian personnel is critical to building and
              sustaining consistency and competence.

              Increase accessions from U.S. Merchant Marine Academy and maritime institutions.
              The Coast Guard will strengthen recruiting efforts at the maritime colleges through
              additional liaison officers and by seeking opportunities for Coast Guard officers to serve as
              faculty at those institutions. Maintaining and sustaining competency within the Marine
              Safety program begins with recruitment and accession of additional maritime
              professionals, and active partnerships with maritime educational institutions.

              Strengthen Marine Safety career paths.
              We will demonstrate the value the organization places on the Marine Safety profession by
              revising personnel management policies. These policies must continue to ensure a viable
              career path to the most senior ranks in the Coast Guard, and value and promote the
              competencies of marine safety specialists. These policies could include, but arll not limited

                                                            4




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                         Page 30
AppendixB
Management Comments to the Draft Report




               to: direct commission programs; direction and guidance to officer selection panels relating
               to the need for specific Marine Safety specialties; increased tour lengths; incentives to
               retain qualified inspectors and investigato.rs; institutional recognition of Marine Safety
               leadership positions in the field: and continuation contracts for officers possessing critical
               skills. Recognize those who advance from apprentice, to journeyman, to expert marine
               safety professional status.

               Expand professional Marine Safety training and education.
               We recently completed extensive review, update, and field testing of Marine Safety course
               and qualification material. The Coast Guard will expand formal and infonnal training and
               education opportunities to improve Marine Safety competencies, skills and qualifications.
               These programs will include additional resident educational'opportunities for the military
               and civilian marine safety workforce, and enhanced pipeline training for field personnel to
               ensure better continuity and consistency in service. Through continuous evaluation, we
               will ensure training, education and qualification standards are responsive to the dynamics
               of the marine transportation system. A robust marine inspector and investigator workforce
               also requires additional expert field personnel to conduct unit training in order to build and
               sustain these critical competencies.                                                  .

              Expand 0Dportunities for maritime industry training.
              The Merchant Marine Industry Training (MMll) program is a model ofindustry
              partnership and professional development. Therefore, the MMIT program will be
              expanded to include both formal and informal assignments to maximize interaction and
              experience. We will adjust the MMIT to industry's technological innovations, complexity,
              and growth as a means for the CoastGuard to better understand and address emerging
              safety, security, stewardship, and economic issues. The Coast Guard will engage industry
              within applicable legal and ethical guidelines to maximize training opportunities and fully
              immerse participants in industry operations. The Ship Rider and other industry
              familiarization programs will be offered to a larger group of Marine Safety professionals.

              Enhance engineering capacity for plan review, policy, and standards development.
              We will seek additional capacity and expertise for plan review of vessels and facilities.
              Increased technical capacity is needed to address plan review of commercial non-tank:
              vessels, marine fire fighting and salvage, standards development and vessel construction
              specialties at Coast Guard Headquarters and the Marine Safety Center. Increased growth
              and complexity in ship design and construction, inclUding high capacity fast ferries, LNG
              ships, mega container and cruise ships, and novel structural designs, call for an innovative
              and knowledgeable technical staff to develop guidance, standards, and policy. As industry
              evolves, so too does the demand for technical expertise.

                            Enhance Service Delivery to Mariners and Industry Customers

              Establish Centers of Excellence.
              We plan to establish additional Centers ofExcellence (CaE) to provide venues for
              professional development and exchange between industry and Coast Guard personnel.
              COEs will focus on specialized areas of industry to improve inspector competencies and
              promote consistency across ports. For example, the Coast Guard Cruise Ship CaE in
              Miami, Florida was created to recognize and address cruise ship complexity, industry
                                                             s




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                          Page 31
AppendixB
Management Comments to the Draft Report




               growth, and attendant risk. Specialized vessel inspection approaches were developed to
               improve inspector competence, effectiveness, and efficiency in nationwide cruise ship
               inspections. The support staff manages a resident 6·day course which provides instruction
               on USCG policy, and covers technical and management issues for foreign flagged cruise
               ships. COEs are appropriate for existing industry sectors and projected growth areas
               including investigations, LNG ships, towing vessels, fishing industry vessels, and outer
               continentai shelf activity. COEs also will provide deployable casualty response and surge
               capacity.

               Improve infonnation technology systems.
               The Coast Guard will incorporate tools to improve access and the exchange of information
               between industry and government using existing marine exchanges as a model. Such
               systems provide real-time, technology-based infonnation to capture and manage the
               maritime transportation system. The Coast Guard will enhance web-based portals for
               sharing information and lessons learned between Coast Guard field personnel and industry,
               and include Coast Guard office directories and cOntact methods. The Coast Guard also will
               provide help-desks and FAQs to facilitate transparency.

               InCrease rulemakjnS' capacity to expedite regulatory jmplementation.
               The Coast Guard will increase capacity to address current and anticipated rulemaking
               projects. Increased rulemaking capacity requires additional support for project
               management, rulemaklng development, economic analysis, environmental analysis,
               technical writing, and administrative law capacity to ensure legal sufficiency and efficacy
               of implementing regulations. We will publish timely guidance to assist regulated industry
               with implementation. To the extent practicable, the Coast Guard also will prepare
               legislative change proposals that minimize required rulemaking. process time.

               Improve mariner credentialing through greater efficiency. transparency and capacity.
               The National Maritime Center (NMC) consolidation began in 2005. Located in West
               Virginia, recent accomplishments include implementation of the Mission Management
               System and reduction in cycle time by 25 percent since September 2006. The following
               milestones will further improve service delivery to the mariner:

                  o   Credentialing help desk tUlly staffed by February 2008;
                  o   Online self-heip application tracking and payment options via www.pay.gov;
                  o   Bulk application processing for academies, schools and industry groups;
                  o   Issue of merchant mariner licensing documents in less than one week; lUld
                  o   Rebuild primary computer system and implement web-based processing.




                                                            6




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                        Page 32
Appendix B
Management Comments to the Draft Report




                      Expand Outreach andAdvisory Mechanisms/or Industry and Communities

               Establish an Assistant Commandant for Marine Safety, Security. and Stewardship
               The Assistant Commandant for Marine Safety, Security, and Stewardship will direct and
               integrate Marine Safety, security, and environmental protection doctrine, policy, plans, and
               regulations. This flag officer will be the Coast Guard's national Marine Safety leader and
               will ensure alignment throughout the Coast Guard and among federal and international
               partners. This flag officer will be responsible for developing and promulgating national
               policy in prevention, response and waterways management, as well as leading and
               overseeing the important work of numerous federal advisory committees and industry
               partnerships.

               Establish a national council of maritime advisors for the Commandant.

               A council of maritime advisors will inform the Commandant of national maritime trends

               and issues of concern. This council will draw its membership from industry leaders,

               governors, academics, fonner
military and government officials, and media.

               Exercise leadership at international. national. regional. state. and local safety, security, and
               environmental committees .
               We will commit resources to lead, support, and engage these committees to collectively
               advance the shared goals ofsafety, security, and environmental stewardship. These fora
               also offer important opportunities to shape regulatory initiatives, and develop non­
               regulatory solutions where appropriate. We will incorporate customer engagement using
               quality processes to elicit rmiritime input as previously done with the "Prevention through
               People" philosophy.

               Conclusion. The Coast Guard has established a clear way ahead to enhance the Marine
               Safety program. The proposed courses of action are responsive to external stakeholders
               and overseers, and supportive of work in progress and ongoing initiatives.




                                                              7




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                          Page 33
AppendixB
Management Comments to the Draft Report




              R 241806Z APR 08 ZUI ASN-AOOl15000012 ZYB FM CO~DT COGARD WASHINGTON
             DC//CG-51/ TO ALCOAST BT UNCLAS IIN1673211 ALCOAST 194/08 COMDTNOTE
             16732
             SUBJ: MARINE CASUALTY INVESTIGATING OFFICER DOCTRINE A. CO~DT eOGARD
             WASHINGTON DC 191735Z NOV 07/ALCOAST 541/07 B. MARINE SAFETY MANUAL
             VOLUME V, eO~DTINST M16000.10A C. MARINE SAFETY MANUAL VOLUME I,
             COMDTINST M16000.6 D. COMCOGARD PERseOM ARLINGTON VA 250057Z MAR
             08/ALCGOFF 037/08 E. COMDT COGARD WASHINGTON DC 081630Z AUG 07/ALCOAST
             387/07 1. REFERENCE A PROVIDED INITIAL GUIDANCE ON RESPONSE DOCTRINE
             FOLLOWING SIGNIFICANT INCIDENTS. THIS MESSAGE REITERATES AND EMPHASIZES
             THE IMPORTANCE OF POLICIES CURRENTLY IN pLACE THAT STRIVE TO ENSURE THE
             INTEGRITY OF THE MARINE CASUALTY INVESTIGATIONS PROGRAM. IN SUPPORT OF
             THIS EFFORT, THIS MESSAGE ANNOUNCES THAT REFERENCE B HAS BEEN
             PROMULGATED THIS DATE AND WILL BE PUBLISHED SHORTLY.
             2. THERE HAS BEEN AN OVERALL DECREASE IN THE EXPERIENCE OF COAST GUARD
             MARINE CASUALTY INVESTIGATING OFFICERS (10). THIS IS DUE IN PART TO THE
             ASSIGNMENT OF NEWLY COMMISSIONED OFFICERS AND OTHER OFFICERS THAT DO
             NOT MEET THE ESTABLISHED PREREQUISITES AND HAVE NO PRIOR EXPERIENCE AS
             INVESTIGATING OFFICERS AND TO THE INFOR~, BUT ROUTINE, PRACTICE OF
             ROTATING THESE OFFICERS THROUGH SEVERAL "PROFESSIONAL GROWTH
             ASSIGNMENTS" DURING THEIR TOUR AT A SECTOR OR SUBORDINATE UNIT.
             3.	 IN AN EFFORT TO STRENGTHEN THE MARINE CASUALTY INVESTIGATION
             PROGRAM, COMDT (CG-545) IS DEVELOPING AN ACTION PLAN THAT WILL ENSURE
             10 BILLETS ARE STAFFED WITH A CORPS OF WELL TRAINED, CERTIFIED AND
             EXPERIENCED MARINE CASUALTY INVESTIGATING OFFICERS.
             UNTIL THE PLAN IS FULLY COMPLETED AND IMPLEMENTED THERE ARE SEVERAL
             STEPS THAT SECTOR COMMANDERS AND MSU COMMANDING OFFICERS MUST TAKE TO
             ENSURE THAT THE OVERSIGHT AND COMPLETION OF MARINE CASUALTY
             INVESTIGATIONS IS DONE BY CERTIFIED MARINE CASUALTY INVESTIGATORS.
             4. I CANNOT OVERSTRESS THAT PROPER TRAINING IS ONE OF THE MOST
             IMPORTANT ASPECTS OF ENSURING OUR PERSONNEL ARE PREPARED AND MOTIVATED
             TO DO THE JOB. CORE COMPETENCIES, PREREQUISITES FOR BECO~ING A MARINE
             CASUALTY INVESTIGATOR AND COMPLETING EACH STEP IN THE TRAINING AND
             CERTIFICATION PROCESS, MUST BE UPHELD.
             5. COMDT (CG-545) IS RESPONSIBLE FOR DETERMINING MISSION ESSENTIAL
             TRAINING REQUIREMENTS FOR ALL MARINE CASUALTY INVESTIGATORS IN ORDER TO
             MEET COAST GUARD AND PROGRAM OPERATIONAL COMMITMENTS.
             ONLY COMDT (CG-545) MAY GRANT A WAIVER TO ANY CERTIFICATION OR MINI~UM
             STANDARD FOR TRAINING. UPDATED PERFORMANCE QUALIFICATION STANDARDS WERE
             ANNOUNCED IN REFERENCE E. COAST "GUARD COMMANDS SHALL ENSURE THAT ALL
             PERSONNEL REQUESTING AND ASSIGNED TO TRAINING MEET ALL COURSE
             PREREQUISITES.
             6. IN ACCORDANCE WITH POLICY IN REFERENCES BAND C, PERSONNEL ASSIGNED
             TO AN OPERATIONAL BILLET AS A MARINE CASUALTY INVESTIGATOR SHOULD
             ALREADY BE FAMILIAR WITH MARINE SAFETY LAWS AND REGULATIONS THROUGH
             PRIOR TRAINING AND QUALIFICATIONS, GENERALLY, AS A MARINE INSPECTOR
             PRIOR TO BEING ASSIGNED TO MARINE CASUALTY INVESTIGATION DUTIES. TO
             FACILITATE THIS REQUIREMENT DURING AY 2009 ASSIGNMENT SEASON AND
             BEYOND, I HAVE DIRECTED COMDT (CG-545) TO WORK WITH THE APPROPRIATE
             HEADQUARTERS OFFICES AND PERSONNEL COMMAND TO ENSURE THAT ALL
             INVESTIGATING OFFICER BILLETS ARE PROPERLY CODED TO INDICATE THE
             PREREQUISITE QUALIFICATIONS REQUIRED FOR PERSONNEL TO BE ASSIGNED AND
             TO FACILITATE THE EFFORTS BY PERSONNEL COMMAND TO FILL THE BILLETS WITH
             APPROPRIATE CERTIFIED PERSONNEL.
             7.	 THE MARINE CASUALTY INVESTIGATIONS PROGRAM IS CONSIDERED AN
             ADVANCED LEVEL OF THE COAST GUARD MARINE SAFETY COMMUNITY.




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                              Page 34
AppendixB
Management Comments to the Draft Report




              ACCORDINGLY, QUICK INTERNAL ROTATION THROUGH AN INVESTIGATING OFFICER
               BILLET IS INAPPROPRIATE. PERSONNEL ASSIGNED ARE EXPECTED TO HAVE HAD
               PRELIMINARY TOURS RENDERING SUCH TICKET-PUNCHING UNNECESSARY. AS WITH
              SHORT TOURS, ACTIVE DUTy MARINE CASUALTY INVESTIGATORS MAY OCCASIONALLY
              BE SELECTED FOR REASSIGNMENT WITHIN A UNIT. SUCH REASSIGNMENTS ARE
               BASED ON THE NEEDS OF THE COMMAND AND ARE OFTEN REQUIRED TO FILL
              CRITICAL POSITIONS WITHIN THE COAST GUARD. BECAUSE OF THE ENORMOUS
               INVESTMENT OF TRAINING AND EXPERIENCE REQUIRED TO CERTIFY AS A MARINE
              CASUALTY INVESTIGATOR AND TO GAIN TECHNICAL COMPETENCE, INTERNAL
              ROTATIONS AND SHORT TOURS ARE HIGHLY DISCOURAGED AND SHOULD BE MADE
              ONLY IN ACCORDANCE WITH REFERENCE D.
              8. IN ORDER TO BECOME CERTIFIED AS A MARINE CASUALTY INVESTIGATOR, THE
              10 MUST COMPLETE PQS AND SIT BEFORE A QUALIFICATION BOARD CONSISTING OF
              PERSONNEL THAT ARE CERTIFIED IN THAT SPECIALTY. TO BE CONSIDERED
              CERTIFIED AS A MARINE CASUALTY INVESTIGATOR THE 10 MUST BE ASSIGNED TO
              AN OPERATIONAL BILLET AS A MARINE CASUALTY INVESTIGATOR, BE DESIGNATED
               IN WRITING AS AN 10 BY THE COGNIZANT OCMI, HAVE ATTENDED THE BASIC
              INVESTIGATING OFFICER COURSE (IOC) AT TRACEN YORKTOWN AND HAVE
              COMPLETED THE MARINE CASUALTY INVESTIGATOR
               (FO) QUALIFICATION. UNTIL THE 10 HAS COMPLETED THEIR CERTIFICATION,
              THEY SHALL, AT ALL TIMES, BE UNDER THE SUPERVISION OF A CERTIFIED
              MARINE CASUALTY INVESTIGATOR AND SHALL NOT BE AUTHORIZED TO CONDUCT AN
              INDEPENDENT MARINE CASUALTY INVESTIGATION. PERSONNEL MUST COMPLETE THE
              PQS ANNOUNCED IN REFERENCE E. LOCAL QUALIFICATIONS ARE NOT AUTHORIZED.
              IN ORDER TO ALLOW PROPER IDENTIFICATION OF CERTIFIED PERSONNEL, UNITS
              SHOULD ENSURE THEY KEEP THE TMT DATA BASE UP TO DATE WITH 10 AND OTHER
              CERTIFICATIONS.
              9. IF YOUR UNIT LACKS THE APPROPRIATE CERTIFIED PERSONNEL TO CONDUCT A
              MARINE CASUALTY INVESTIGATION, THEN YOU SHALL SEEK ASSISTANCE OUTSIDE
              OF YOUR UNIT. COMDT (CG-545) IS CONDUCTING A STUDY OF THE STATUS OF 10
              QUALIFICATIONS, INCLUDING PERSO~EL CURRENTLY ASSIGNED TO 10 BILLETS
              AND THOSE WITH 10 CERTIFICATIONS NOT ASSIGNED TO 10 BILLETS. ON APRIL
              18, COMDT (CG-545) REQUESTED DATA FROM ALL UNITS DOCUMENTING
              CERTIFICATION AND BILLET INFORMATION ON ALL INVESTIGATING OFFICERS. IF,
              IN THE PROCESS OF COMPLETING THE DATA CALL, A UNIT WITH A SHORTFALL OF
              CERTIFIED MARINE CASUALTY INVESTIGATORS IDENTIFIES A CERTIFIED MARINE
              CASUALTY INVESTIGATOR NOT CURRENTLY ASSIGNED TO AN 10 BILLET, THE UNIT
              SHOULD CONSIDER FOLLOWING THE GUIDANCE OF REFERENCE D TO INTERNALLY
              ROTATE THAT CERTIFIED pERSON INTO AN 10 BILLET, OR AS AN ALTERNATIVE,
              IDENTIFY THEM AS A RESOURCE TO SUPERVISE ALL MARINE CASUALTY
              INVESTIGATIONS UNTIL SUCH TIME AS THE UNIT IS ASSIGNED CERTIFIED
              PERSONNEL. IF A UNIT HAS NO CERTIFIED MARINE CASUALTY INVESTIGATORS,
              COMDT (CG-5451 WILL WORK TO IDENTIFY AVAILABLE RESOURCES TO ASSIST.
              10. RDML BRIAN SALERNO, ASSISTANT COMMANDANT FOR MARINE SAFETY,
              SECURITY AND STEWARDSHIP, SENDS;
              11.   INTERNET RELEASE AUTHORIZED.
              BT                        '
              NNNN




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                              Page 35
Appendix C
Congressional Request for Audit




                                                  December 16, 2005



             Mr. Richard L. Skinner
             Inspector General
             Department of Homeland Security
             Washfugton, DC 20528
             Artn:Office of Inspector General

             Dear Mr. Skinner:

                       Onbehalfofthe Committee on Transportation and 1nfrastmctnre of the House of
             Representatives lind the Committee on Commerce, Science llI1d Ttanliportation of the
             Senate, We are writing to request your office to conduct a study of the Coast Guard's
             marine caliualty investigation program and to report tothese Committees the findings and
             rec;ortll'i1endations ofthatstudy not later thanJune 30, 2007.

                      The Committees expect that the study and report shall examine the extent to
             which marine casualty investigations and reports result in information and
             recommendations that prevent simil.ar casualties; minimize the effect of·si01i1ar
             c:aliualties, given that it bas occurred; and maximize lives saved in si:tnilar casualties,
             given that the vessel has become uninhabitl1ble.

                     The Conunitteesalso suggest that the study ineludethe follOWing to promote the
             safety ofalI who work on or travel by water and to protect the marine·environment:

                 •	 the adequacy of reS{)llfces devoted to marine caslJlllty investigations considering
                    caseload, and duty assignment practices;

                 •	 training and experience of marine casualty invelltigators;

                 •	 investigation standards aIid methods, including a comparison of the fonnal and
                    infonnal investigation processes;

                 •	 lise of best investigation practices considering transportation investigation
                    practices used by other Federal agencies and foreign governments; inclUding
                    British Marine Accident Investigation Branch programs;

                 •	 usefulness of the marine casuaItydata base for marine casualty prevention
                    programs;




         United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                         Page 36
Appendix C
Congressional Request for Audit


                                                                2



                     •	   the extent to which marine casualty data and information have been used to
                          improve the survivability and habitability of vessels invol ved in marine casualti es;

                     •	   any changes to current statutes that would clarify Coast Guard responsibilities for
                          marine casualty investigations and report ; and

                     •	 the extent to which the Coast Guard has reduced the frequency of fonnal
                        investigations, or changed the types of incidents for which it has carried out a
                        fOffilal investigation process. in the past five years,

                       We thank you for your important contribution to our Committees' oversight over
                the Coasl Guard's marine safety mi ssions, and we look forward to receiving your report.


                                                                 Sincerely,


                 '                      .--/\.../
                                           7
                          ~J
            /
                DON YOUN                                                        TED STEVENS

                                                                                Chairman

                Committee on Transportation                                     Committee on Commerce,
                 and fnfrastmcture                                               Science and Transportation
                United States House of Representatives                          United States Senate




                          ~L.O~
                  nking Democratic Member
                                                                                DANIEL K, IN
                                                                                Ranking Democ
                Committee on Transportation                                     Committee on C r mcree,
                 and Infrastructure                                              Science and Tra , )ortation
                United States House of Representatives                          United States




         United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                             Page 37
AppendixD
Coast Guard's G-MOA Policy Letter 2-02




                Enclosure (1)

                                                                                     Levels a/Investigative Effort
           I.         Purpose
            This enclosure provides guidance to implement new policy and process for the investigation,

            reporting, and record-keeping associated with Coast
Guard marine casualty investigations. This
            policy does not apply to:
                   •	 46 CFR 4.05 requirements for notice and written reports ofcasualties;
                   •	 46 CPR 4.06 and 33 CFR 95 requirements for post-casualty chemical testing and the
                      reporting ofchemical test results;
                   •	 Regulations and policy regarding pollution investigations;
                   •	 Personal action investigations of licensed or documented maril1ers; and
                   •	 Investigation ofcivil or criminal offenses.

            II.       Levels of Investigative Effort
            The Quality Action Team on Marine Safety Investigations suggested that three levels of

            investigation are
necessary once a preliminary investigation verifies an incident has occurred and
            assesses its apparent severity. This policy implements those levels ofinvestigation:

                  •	 Preliminary Investigations are initial investigative efforts undertaken to ascertain
                     whether a report is genuine, how severe the inCident is or will become, whether the Coast
                     Guard has jurisdiction, whether other agencies or offices must be notified, and what level
                     of Coast Guard investigative effort is necessary. Ooce a preliminary investigation
                     verifies that a reportable marine casualty as defmed in 46 CFR 4.05-1 bas occurred, the
                      cognizant investigative authority assigns the incident for investigation as a data collection
                      activity, informal investigation, or fonnal investigation, depending on severity and value
                      to marine safety.

                  •   Data CoUection A.ctivities do not require any significant investigative effort, and usually
                      consist only ofcollecting and entering basic factual information into MISLE for fUture
                      reference and analysis. Only minimum follow-up to veritY accuracy and completeness
                      should be conducted as necessary.

                  •	 I"formal Investigations are less exhaustive investigative efforts than formal
                      investigations, but include the determination and reporting of the causal factors of a
                      casualty and violation analysis, when applicable. This is the minimum level of
                      investigative effort reqUired to initiate enforcement actions.

                  •	 Formal Investigations are reserved for the more serious or significant incidents

                     investigated under 46 USC Chapter 63 from which the most value
can be gained. Marine
                      Boards ofInvestigation convened by the Commandant and other fonnal investigations
                      convened by the District Commander or OCMI/COTP fit into this category.



                                                                2




       United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                         Page 39
AppendixD
Coast          G-MOA Policy Letter 2-02




            III.       Conduct of Investigations and Data Collection Activities
            Prelimina,yl1JVestigations A preliminary investigation shall be conducted for any report or
            evidence of a reportable marine casualty as defme4 in 46 CFR 4.05-1 involving aU .S. or foreign
            flag commercial vessel. The following criteria applies:

                   •	 When a preliminary investigation reveals that a reportable marine casualty as defined in
                      46 CFR 4.05-1 has in fact occurred, the level of investigative effort shall be raised to a
                      data collection activity, informal investigation, or formal investigation.

                   •	 When a preliminary investigation reveals that a marine casualty meets the MlSLE Data
                      Entry Exemption below, is not reportable under 46 CFR 4.05-1, or it cannot be verified
                      that a marine casualty has occurred, no additional Investigative effort is required and the
                      results ofthe preliminary investigation shall be documented in MISLE in accordance
                      with the Investigations and Enforcement Process Guide.
               •	 Investigations closed at the preliminary level never require finding of fact (timeline)
                  enmes.
            Data Colhclio" Activities A data collection activity shall be conducted for all reportable marine
            casualties as derIDed in 46 CFR 4.05-1 not assigned to InflmnalInvestigation or Formal
            Investigation. MlSLE data entry requirements shall be in accordance with the Investigations and
            Enforcement Process Guide.

               •	 MISLE incident Investigation Data Entry. Normally, the reported casualty
                  information should be entered inm MISLE with only minimum effort expended to verify
                  its accuracy and completeness in accordance with the Investigations and Enforcement
                  Process Guide. The intent ofthis policy is to reduce the unit workload resulting from
                  investigation ofminor marine casualties to an absolute minimum while retaining basic
                  event infonnation for trend and statistical analysis.

               •	 MlSLE Ineident Investigation Data Entry Exceptions. No MlSLE data entry beyond
                  the MISLE notification Information is necessary or desired for marine casualties
                  meeting the below criteria. For incidents meeting this criteria, the CG-2692 and any
                  other material received should be documented in the notification after minimal review to
                  verify that the incident meets one of the criteria. When feasible, the unit shalL
                  electronically attach the 00-2692 and other material to the MISLE notification. Until
                  that time, the CO-2692 and other material shall be sent to Commandant in accordance
                  with current policy.
                      I. Groundings involving "bump and go" touching of the bottom on Western Rivers (as
                          defined in 33 USC 2003) by uninspected towing vessels and uninspected barges in the
                          navigation channel with no damage. no pollution, no personnel injuries, no breaking
                          apart ofthe tow, and no a$sistance required to resume voyage.
                      2.	 Casualties invoLving only minor injury. A minor injury is any injury that does not
                          result in broken bones (other than fingers, toes. or nose), loss of limbs, severe
                          hemorrhaging, severe muscle, nerve, tendon, or internal organ damage, or in
                          hospitalization for more than 48 hours within 5 days of the injury.


                                                                3




     United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                         Page 40
AppendixD
Coast Guard's G-MOA Policy Letter 2-02




                    3.	 Casualties involving injuries when the injuries result from a pre-existing medical
                        condition and not from a marine operation. (Le. a mariner with diabetes suffers a
                        spell of blurry vision, and during the spell trips because he did not see a deck fitting
                        and breaks a leg.) If the mariner holds license or merchant mariner's document the·
                        incident should be investigated to determine if suspension and revocation proceedings
                        should be pursued by reason of medical incompetence.

                    4.	 Casualties (other than collisions and allisions) reported only because of property
                        damage in excess of $25,000 where the property damage does not exceed $100,000.

                    5.	 Casualties involving U.S. state-numbered commercial vessels exempt from reporting
                        to the Coast Guard under 46 CFR 4.01-3(a), unless a fonnal or informal investigation
                        is conducted.

            Informal Investigations An informal investigation should be conducted for any casualty
            involving a U.S. or foreign flag commercial 'VeSsel and meeting any of the below criteria.
            MISLE data entry requirements shall be in accordance with the Investigations and Enforcement
            Process Guide.

               •	 Death; One death. Death cases may be downgraded to the Data Collection Activity level
                  of investigation after credible evidence (such as a death certificate) indicates death from
                  natural causes (including a pre-existing medical condition) or suicide.

               • !ni!!!Y: One injury which results in fractured bones (other than fmgers, toes, or nose), loss
                    of limbs, severe hemorrhaging, severe muscle, nerve. tendon, or internal organ damage,
                    or in hospitalization for more than 48 homs within 5 days ofllie injury.

               •	 Vessel loss: Loss of an uninspected vessel ofless than 500 OT, or loss of a barge of more
                  than 100 OT on inland waters (as defmed in 33 USC 2003).

               •	 Property damage: An e'Vent involving a vessel    and    resulting in property damage
                  exceeding $100,000 but less than $1,000,000. The damage value comprises the cost of
                  labor and material to restore the property (vessels, shoreline facilities, pipelines, OCS
                  facilities, etc.) to its original condition before the occurrence, but does not include
                  damage to natln'al resources, or the cost of salvage, cleaning, gas-freeing, dry-docking, or
                  demurrage. Damage value.s should be the best estimates available immediately following
                  the accident.

               •	   Collision: Any collision or allision resulting in property damage exceeding 525,000.

               •	 Loss of propulsion or steering; Any loss of propulsion or steering, even if momentary,
                    affecting an inspected U.S. vessel anywhere, or affecting a foreign flag vessel or an
                    uninspected U.S. vessel over 100 GT on U.S. navigable Waters.

               •	 Flooding or fire; Flooding or fire that adversely affect a vessel's fitness for service on an
                  inspected U.S. vessel anywhete, or on a foreign flag vessel or an uninspected U.S. vessel
                  over 100 OT on U.S. navigable waters.



                                                             4




       United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                       Page 41
AppendixD
Coast Guard's G-MOA Policy Letter 2-02




               •	 Equipment failure: Failure of Coast Guard-approved primary lifesaving equipment or
                  Coast Guard-approved firefighting equipment.

               •	 Discharge: Medium discharge ofoil or medium release of a hazardous substance (as
                  defined in 40 CPR 300.5), or ofhazardous cargoes regulated under 46 CPR Subchapter
                  0, in which a vessel is the source or the cause ofthe discharge or release.

               •	 Commercial Diving Casualty, Death or injury ofpersons diving from a vessel for

                  commercial purposes.


               •	 Recreational Diving Casualty: Death or injury ofpersons diving from a vessel in federal
                  waters for recl;eational PUIPOses.
            FortnalInvestigation A fonnal investigation should be conducted for any casualty involving a
            U.S. or foreign flag commercial vessel and meeting any of the below cdteria. MISLE data entry
            requirements shall be in accordance with the Investigations and Enforcement Process Guide.
               •	 Death: 2'or more deaths.
               •   ~:      2 or more seriously disabling injuries or 6 or more injuries which result in .
                   fractured bones (other than fingers, toes, or nose), loss of limbs, severe hemorrhaging,
                   se\lere muscle, nerve, tendon, or intemal organ damage, or in hospitalization for more
                   than 48 hours within 5 days ofthe injury.

               •	 Vessel loss: Loss ofan inspected vessel, or loss ofan uninspected vessel of 500 GT or
                  more.
               •	 Property dlQJl3ge: An event involving a vessel and resulting in property damage
                  exceeding $1,000,000. The damage value comprises the cost oflabor and material to
                  restore the property (vessels, shoreline facilities, pipelines. OCS facilities, etc.) to its
                  original condition before the occurrence. but does not include damage to natural
                  resources, or the cost of salvage. cleaning; gas-freeing, dry-docking. or demurrage.
                  Damage values should be the best estimates available immediately following the
                  accident.

               •   Discharge: Major discharge ofoil or major release of a bazardoussubstance (as defmed
                   in 40 CFR 300.5). or ofbazardous cargoes regulated under 46 CFR Subchapter 0. in
                   which a vessel is the source or the cause ofthe discharge or release.
               Foreign Flag Ex.ception: A formal investigation is not required for a casualty involving only a
               foreign flag vessel (i.e., no U.S. vessel involved. no damage to U.S. property. and no injury
               of U.S. citizens).
               Barge Exception: A fonnal investigation is not required for the loss of a barge on inland
               waters (as defined in 33 USC 2003).




                                                              5




      United States Coast Guard's Management of the Marine Casualty Investigations Program

                                                       Page 42
AppendixE
Responses to Committees' Concerns

                     The Committee on Transportation and Infrastructure of the House of
                     Representatives and the Committee on Commerce, Science and
                     Transportation of the Senate requested us to examine the extent to which
                     marine casualty investigations and reports result in information and
                     recommendations that prevent, minimize the effect of, and maximize lives
                     saved in similar casualties. See Appendix C for the Committees' request.
                     The Committees also suggested that our review include the following:

                     a.	 The adequacy of resources to marine casualty investigations
                         considering caseload and duty assignment practices. The majority of
                         personnel conducting marine casualty investigations are not qualified to
                         conduct investigations, and the resources for the review and closure
                         process of investigations are inadequate, resulting in a substantial backlog
                         of investigations at Coast Guard headquarters.

                     b.	 The training and experience of marine casualty investigators. 15 of
                         the 22 marine casualty investigators who we tested were not qualified
                         under Coast Guard policy to conduct these investigations. Also, 3 of 15
                         marine casualty investigators have not taken either the basic or advanced
                         marine casualty training course. Further, marine casualty investigators are
                         not generally in their positions for more than one tour of duty at the same
                         location. According to Coast Guard personnel, a reasonable career path to
                         become an experienced marine casualty investigator would entail more
                         than one tour of duty in the same location. Increasing the number of
                         civilians in the marine casualty investigations program or extending the
                         tour of duty for Coast Guard personnel could result in increased
                         knowledge of local waterways and industries.

                     c.	 Investigation standards and methods, including a comparison
                         between the Formal and Informal investigation processes. Informal
                         investigations are less exhaustive than formal investigations, but still
                         include the determination and reporting of the causal factors. Formal
                         investigations are reserved for the more serious or significant casualties
                         where the most value can be gained.

                     d.	 The use of best investigation practices considering transportation
                         investigation practices used by other federal agencies and foreign
                         government, including British Marine Accident Investigation
                         programs. The United Kingdom's Marine Accident Investigation
                         Branch, Australian Transportation Safety Board, and Transportation
                         Safety Board of Canada focus on maritime safety and do not assign fault
                         or determine civil or criminal liabilities. Similarly, the United States
                         National Transportation Safety Board does not assign fault or determine


         United States Coast Guard's Management of the Marine Casualty Investigations Program


                                               Page 43

AppendixE
Responses to Committees' Concerns

                          liabilities, but is focused on safety and preventing similar casualties.
                          Further, these organizations on average conduct 18 marine casualty
                          investigations per year, while the Coast Guard on average conducts 3,800
                          investigations, including approximately 266 informal and formal
                          investigations per year. Also, these organizations do not have
                          enforcement powers. According to Coast Guard officials, the Coast
                          Guard's enforcement powers and assignment of fault do not prevent the
                          Coast Guard from determining the casual factors of the marine casualties.

                     e.	 Usefulness of the marine casualty database (MISLE) for marine
                         casualty prevention programs. While there are various types of data
                         input errors in MISLE, it is useful. With a thorough review at Coast
                         Guard headquarters, these errors could be further minimized. Coast Guard
                         provides routine training to the field personnel for MISLE. Coast Guard
                         officials stated MISLE is a better system than the previous system; it is
                         user-friendly and can be used to identify patterns with casualties. Yet,
                         these officials and an official from an external entity stated that in some
                         areas the causal analysis function could be improved. Safety advisory
                         committees and other customers have used MISLE data. The Towing
                         Safety Advisory Committee used MISLE data to develop a report
                         regarding the proposed towing vessel inspection regulations. This report
                         utilized Coast Guard-gathered marine casualty data on towing vessels
                         from 1994-2005. This information was used to determine the severity and
                         causes of these marine casualties.

                     f	   The extent to which the marine casualty data and information have
                          been used to improve survivability and habitability of vessels involved
                          in marine casualties. The Coast Guard has issued numerous safety alerts
                          and recommendations based on its marine casualty investigations. For
                          example, as a result of a charter fishing vessel capsizing while crossing the
                          Tillamook Bay Inlet in Oregon, the Coast Guard issued a risk based matrix
                          to mariners to determine whether crossing of the inlet was permitted.
                          Another example resulted from multiple allisions by a casino vessel with
                          the St. John's Pass Bridge, in St. Petersburg, Florida. The Coast Guard
                          came to an agreement with the casino operators not to pass by the bridge
                          unless currents and winds are at a safe level. Sector Hampton Roads
                          issued a safety alert for full body harnesses for towing vessel operators,
                          which, according to a towing vessel operator, vastly improved the safety
                          in the industry. The Coast Guard also issues safety alerts for general
                          operations, cargo operations, engineering, navigation equipment, and
                          safety equipment. These safety alerts and recommendations by the Marine
                          Casualty Investigations Program contribute to the general safety of the
                          waterways.


         United States Coast Guard's Management of the Marine Casualty Investigations Program

                                               Page 44
AppendixE
Responses to Committees' Concerns


                    g.	 Any changes to current statutes that would clarify Coast Guard's
                        responsibilities for marine casualty investigations and reports.
                        Although we did not identify any required changes in statutes or
                        regulations regarding marine casualty investigations, we did identify
                        conflicting interpretations and applications of the Coast Guard's
                        September 2002 policy letter. For example, per the policy letter, loss of
                        propulsion should be investigated at the informal level. However, some
                        marine casualty investigators define loss of propulsion as lost propulsion
                        from one engine even though there might be multiple engines, whereas
                        others defined loss of propulsion as when a vessel cannot remain
                        underway. In addition, the dollar estimates for damages should be
                        updated to reflect more current costs of repair. The Coast Guard should
                        review the criteria for various levels of investigations and make
                        appropriate changes, and ensure that the criteria are consistently applied
                        throughout the Coast Guard. Further, the Coast Guard must finalize an
                        updated version of the Marine Safety Manual.

                    h. The extent to which the Coast Guard has reduced the frequency of
                        Formal investigations, or changed the types of incidents for which it
                        has carried out Formal investigations, in the past five years. Based on
                        our review of an extract from the MISLE database on the 15,327 marine
                        casualties that occurred during the period January 1, 2003 through October
                        31,2006, the Coast Guard conducted 13 formal investigations. However,
                        based on our testing, we identified an additional 134 marine casualties that
                        should have been conducted at the formal level. The Coast Guard
                        conducted these investigations at the lesser informal or data collection
                        activity levels.




        United States Coast Guard's Management of the Marine Casualty Investigations Program

                                              Page 45
Appendix F
Major Contributors to this Report


                     Washington, D.C. Office

                     Richard T. Johnson,

                     Director, Coast Guard and Maritime Security Operations Division


                     Boston, MA Field Office

                     Maureen Duddy, Auditor Manager
                     Edward Jeye, Auditor-in-Charge
                     Michael Brunelle, Program Analyst
                     Lindsey Cabral, Auditor
                     David DeHaven, Auditor
                     Paul Exarchos, Program Analyst
                     Jeanne Genao, Program Analyst
                     Colin Sullivan, Auditor




         United States Coast Guard's Management of the Marine Casualty Investigations Program

                                               Page 46
Appendix G
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/DIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Commandant, USCG
                      USCG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS DIG Budget Examiner

                      Congress

                      Committee on Transportation and Infrastructure of the House of
                      Representatives
                      Committee on Commerce, Science and Transportation of the Senate
                      Congressional Oversight and Appropriations Committees, as appropriate




         United States Coast Guard's Management of the Marine Casualty Investigations Program

                                               Page 47
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

   •	   Call our Hotline at 1-800-323-8603;
   •	   Fax the complaint directly to us at (202) 254-4292;
   •	   Email us at DHSOIGHOTLINE@dhs.gov; or
   •	   Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600, Attention:
        Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
        Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
